<html>
<title> - RISE OF THE ZOMBIES:. THE UNAUTHORIZED AND UNACCOUNTABLE GOVERNMENT YOU PAY FOR</title>
<body><pre>[Senate Hearing 116-132]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-132

                          RISE OF THE ZOMBIES:
       THE UNAUTHORIZED AND UNACCOUNTABLE GOVERNMENT YOU PAY FOR

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON FEDERAL SPENDING
                   OVERSIGHT AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 30, 2019

                               __________

                  Available via http://www.govinfo.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               _________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-897 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

  SUBCOMMITTEE ON FEDERAL SPENDING OVERSIGHT AND EMERGENCY MANAGEMENT

                     RAND PAUL, Kentucky, Chairman
RICK SCOTT, Florida                  MAGGIE HASSAN, New Hampshire
MICHAEL B. ENZI, Wyoming             KAMALA D. HARRIS, California
JOSH HAWLEY, Missouri                KRYSTEN SINEMA, Arizona
                      Greg McNeill, Staff Director
                  Harlan Geer, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Hassan...............................................     3
    Senator Paul.................................................     4
Prepared statement:
    Senator Paul.................................................    21
    Senator Hassan...............................................    24

                               WITNESSES
                      Wednesday, October 30, 2019

Hon. Cathy McMorris Rodgers, a Represenative in Congress from the 
  State of Washington............................................     1
Kevin R. Kosar, Vice President of Policy, R Street Institute.....     6
Jonathan Bydlak, President, Institute for Spending Reform........     8
James A. Thurber Ph.D., Distinguished Professor of Government, 
  American University............................................    10

                     Alphabetical List of Witnesses

Bydlak, Jonathan:
    Testimony....................................................     8
    Prepared statement...........................................    29
Kosar, Kevin:
    Testimony....................................................     6
    Prepared statement...........................................    25
Thurber, James A. Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    34

                                APPENDIX

Chart............................................................    30

 
                          RISE OF THE ZOMBIES:.
       THE UNAUTHORIZED AND UNACCOUNTABLE GOVERNMENT YOU PAY FOR

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2019

                                 U.S. Senate,      
                        Subcommittee on Federal Spending,  
                    Oversight and Emergency Management,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:55 p.m. in 
room 342, Dirksen Senate Office Building, Hon. Rand Paul, 
Chairman of the Subcommittee, presiding.
    Present: Senators Paul, Scott, and Hassan.
    Senator Paul. I call this hearing to order.
    The first witness is the Honorable Cathy McMorris Rodgers 
of the U.S. House of Representatives.

 OPENING STATEMENT OF THE HONORABLE CATHY MCMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Ms. Rodgers. Thank you, Chairman Paul and Ranking Member 
Hassan, for this opportunity. I would like to talk about the 
Unauthorized Spending Accountability (USA) Act, that I have 
been a champion of in the House, along with many other co-
sponsors. I appreciate you giving me some time to shine the 
light on these solutions that I believe would be helpful in 
helping to control our out-of-control government spending, and 
to bring accountability that is so desperately needed.
    Right now there are hundreds of programs within the Federal 
Government that are unauthorized. They are on autopilot. They 
are runaway programs that have not been reviewed or 
reauthorized by the people's representatives in Congress, in 
some cases for decades.
    A few years ago, Jake Tapper called these unauthorized 
programs ``zombie programs,'' and it is a perfect description. 
Now I just learned that it is actually Kevin Kosar who 
originally called them zombie programs, and you are going to 
hear from him a little bit after me.
    But these zombie programs account for roughly $310 billion 
in government spending. That is hundreds of billions of 
dollars. Often it is part of the untold frustration that we 
often hear from the citizens, the hard-working taxpayers that 
we represent. Congress is not using its power to exercise the 
power of the purse to hold these programs accountable on a 
regular basis, and it needs to change.
    That is why I have introduced, and I am leading, the USA 
Act. The USA Act will sunset zombie spending. It will require 
the people's representatives to review, rethink, or possibly 
eliminate government programs that no longer serve their 
mission. It would really ensure that we are doing our job to 
rethink, review, bring these programs into the 21st Century at 
times, and make sure that every dollar is spent wisely.
    First, it requires Congress to either end or reauthorize 
programs that do not have current reauthorization, enforcing 
this requirement through an annual spending cut for 3 years. On 
the third year, if the program has not been reauthorized, then 
it will sunset.
    The USA Act lays out a fiscally sound but feasible schedule 
for the Federal bureaucracy to defend their need for taxpayer 
dollars. It provides flexibility for authorizers to get their 
work done while maintaining spending discipline. Because 
Congress is reviewing programs, it ensures that necessary 
programs are improved and updated.
    We all hear the frustration. People are frustrated by out-
of-control spending. They are frustrated by record debt, record 
deficit, and they are frustrated because their elected 
representatives seem powerless at times, against the unelected 
bureaucrats in the Executive Branch and judges who legislate 
from the bench. There is a breakdown of trust as people see so 
much government waste, no accountability, and agencies that 
have lost sight of their mission.
    My goal with the USA Act is to rein in this runaway zombie 
spending and ensure that the American people can trust they are 
empowered through their elected representatives who are doing 
their job, the good government solution to restore the 
separation of powers.
    Article 1 gives Congress the exclusive power to write laws 
and set the funding priorities. Our founders established this 
by design. They put decisionmaking power where it is closest 
and most accountable to we, the people. That is what makes 
America the greatest experiment in self-governance the world 
has ever known. To keep this experiment alive, Congress needs 
to rebuild trust, restore Article 1 power, and keep 
decisionmaking close to the people. A good way to start is by 
putting an end to these zombies that are feasting off of broken 
spending process in Congress.
    I am grateful to my friends and colleagues in the Senate 
for this opportunity to highlight the USA Act with all of you. 
I hope we can continue to work together on more solutions to 
restore the power of the purse, bring accountability, and rein 
in government spending.
    Thank you very much.
    Senator Paul. Thank you for coming. I think we promised not 
to ask questions, but what if we broke our promise and asked 
one or two?
    Ms. Rodgers. That is great, yes.
    Senator Paul. They are friendly questions. At least mine 
are.
    Ms. Rodgers. Yes.
    Senator Paul. But anyway, do you have a Democrat co-
sponsor?
    Ms. Rodgers. I am working on it.
    Senator Paul. OK. We have done the same. We have 
reintroduced a similar bill and we have not had one yet. Have 
you gotten feedback from the other side as far as whether or 
not you have a chance or what the obstacles are?
    Ms. Rodgers. Right. I have worked on this legislation now 
for several years. We introduced it first, I believe two 
Congresses ago, and are continuing to build awareness, build 
support. There is some hesitancy putting Congress on this 
schedule, but I believe that we need that. We need something 
that is going to force Congress to make the tough decisions.
    Senator Paul. My point is we look back to William Proxmire, 
who was a Democrat, who pointed out these sort of wasteful 
projects from back in the 1970s, and we said, why are we still 
doing this? Part of the answer, at least, is maybe we look at 
these programs and see where we are spending the money. We have 
given away the authority.
    Ms. Rodgers. Yes. It is an opportunity for us to update a 
program that was put in place in the 1990s. It was a very 
different time in the 1990s than where we are in 2019. It is 
absolutely important that we are updating these programs, 
looking through the lens of 2019. How often do we meet with 
someone that is working within the Federal Government that 
feels like their hands are tied? They are saying, ``Well, this 
is the law, these are the rules. We do not have the flexibility 
to do what we really should be doing within the program or this 
agency.''
    That is where if Congress was actually doing this on a more 
regular basis, and making sure that it is not decades that go 
by before a program is reviewed, and we can rethink it, it 
would also empower those that are really working hard on the 
front lines and want to spend taxpayer dollars wisely.
    Senator Paul. Senator Hassan.

             OPENING STATEMENT OF SENATOR HASSAN\1\

    Senator Hassan. Thank you for your testimony and for your 
work and interest in this area. I share a lot of the concerns 
that you outlined. I probably have a different approach, in 
terms of how you might go about holding programs accountable 
and making decisions about reauthorization. It may not be a 
different approach, but I wonder what you think about it. 
Senator Shaheen, my senior Senator, and I were both on a bill 
in the past that would do Federal budgeting much more like the 
way States do it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hassan appears in the 
Appendix on page 24.
---------------------------------------------------------------------------
    We would suggest biennial budgeting, so in the first year 
you actually appropriate funds and authorize programs. The 
second year of the biennium you would actually have metrics so 
you would be measuring those programs against those metrics, 
looking at how they work, and then that would inform the 
budgeting process the next year.
    Does that sound like something we could find bipartisan 
support for?
    Ms. Rodgers. Yes. There has been similar legislation 
introduced in the House. It is part of a package that I think 
many members, bipartisan, believe would help bring 
accountability. I have supported that proposal in the House. I 
would still come back to the fact that years go by, decades go 
by, and you are talking hundreds and hundreds of programs, 
agencies, and departments, that are on autopilot, that continue 
to get funded every year, whether it is 1 year or 2 years, 
without Congress really bringing them in and saying, ``OK, we 
need to make sure that you are authorized, and reauthorized.'' 
Do not let those deadlines go by. Often they have deadlines, 
but we have just allowed those deadlines to go by.
    Senator Paul. One other comment on that would be that we 
have groups of people we call appropriators, and then there is 
the rest of us. They tend to have all of this power, and it is 
supposed to be somewhat split with authorizers who are supposed 
to watch the appropriators, and then there would be more of a 
check and a balance.
    I think we need to figure out a way, and all I would say 
from my point of view is if there was something that we could 
find agreement on to figure out how to force authorization, on 
the details of my bill, I am open to compromise on, if we could 
find a common ground.
    Ms. Rodgers. Yes, and we really need to figure out that 
piece between the appropriators and the authorizers, because, 
yes, I thought that was--yes, we need to figure out. That is 
the piece that I believe is missing, and this is one attempt.
    Senator Paul. Thank you for coming over.
    Ms. Rodgers. OK. Thank you. Good to be with you.
    Senator Paul. We will go ahead and have the second panel 
come forward, and we will start with our opening statements 
now.

              OPENING STATEMENT OF SENATOR PAUL\1\

    Senator Paul. We are here the day before Halloween to talk 
about zombies. These are not the kind of zombies we see on the 
Walking Dead or what we might see on our doorstep tomorrow 
evening. In many ways, these zombies are far scarier. These are 
zombie government programs that have sometimes not been 
reauthorized for decades.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Paul appears in the Appendix 
on page 21.
---------------------------------------------------------------------------
    Since the mid 19th Century, and reaffirmed in the 1974 
Budget Act, Congress separated spending bills from the 
authority, and we were supposed to have checks and balance 
between appropriators and authorizers. In recent decades, 
though, Congress has failed in its oversight by not 
reauthorizing the programs it creates.
    What are these zombie programs? They are programs Congress 
created long ago that have since expired and yet somehow live 
on, continuing to receive appropriations. How big is the 
problem? Some might say, ``Well, surely it cannot be more than 
a few dozen programs, or maybe just a few million dollars.'' 
Actually, it is over 1,000 programs and $300 billion. It is a 
huge problem.
    What are these zombie programs? Some are ridiculous and 
well out of date. For example, the Inter-American Foundation 
spent taxpayer dollars on such things as a clown college in 
Argentina, welfare in Brazil, and jump-starting the Haitian 
film industry. When I point these things out people always ask 
me how such ridiculous things continue to get funded. Part of 
the answer is unauthorized spending. The Inter-American 
Foundation was created in the 1960s and last authorized more 
than 30 years ago. It is no wonder a lot of people ask, ``What 
is the Inter-American Foundation?''
    It is not just bad programs, though. There is a lot of 
conversation these days about election security. But it would 
surprise people to learn that the Federal Election Commission 
(FEC) was last reauthorized in the 1980s, before there was the 
Internet or electronic voting machines. That means the FEC does 
not have the proper powers, authorities, or guidance to address 
current needs, or worse, they are making up their own rules as 
they go.
    I put forward a solution, a zombie cure, called the 
Legislative Performances Review Act. This bill would require 
programs to be reauthorized every 4 years, creates a targeted 
point of order against funding such programs, it provides for 
an orderly wind-down of expired programs, and it asks 
committees to consider performance evaluations, which Congress 
has been mandating but ignoring for the past 25 years, when 
authorizing programs.
    Some say that sufficient oversight happens in the spending 
committees, with the appropriators. I do not think that is 
true. If we are to look at this program and look at this 
problem, I think we really have to have some sort of parameters 
that force authorization to happen, or some kind of punishment 
to the program that does not allow it to continue on.
    I, for one, think there is need for reform. I also am very 
open to compromising with anyone on the Democrat side who wants 
to have reform, this is something, eminently, we would 
compromise on if we can find common ground.
    Thank you, and with that I recognize Senator Hassan.
    Senator Hassan. Thank you, Mr. Chairman. I appreciate your 
work and your staff's work on this hearing, and I also want to 
thank the witnesses for being here today to provide their 
expertise on these issues.
    Today's hearing focuses on the issue of government spending 
on programs that have expired and that Congress has failed to 
reauthorize, but continue to operate through mandates in 
appropriations bills.
    Earlier this year, the Congressional Budget Office (CBO) 
reported that in fiscal year (FY) 2019, 971 programs continue 
to operate despite an expired authorization of appropriations. 
These programs cost $307 billion and accounted for roughly 25 
percent of all discretionary funding in fiscal year 2019.
    There are critically important programs among those 
identified by the CBO. These are large programs like medical 
services and hospital care for veterans, and those established 
under the Violence Against Women Act (VAWA), as well as smaller 
programs dedicated to civil rights, environmental protection, 
and the promotion of science and the arts. These programs are 
vital to the health and safety of our constituents, and that is 
all the more reason that they should be subject to 
congressional oversight through the reauthorization process, so 
we can be assured that they are working as Congress intended 
and so that we can identify opportunities for improvement.
    I am proud to have introduced and supported a number of 
bipartisan bills to help Congress fulfill its oversight duties 
in an efficient, data-driven way, including the Foundations of 
Evidence-Based Policymaking Act, Taxpayers Right to Know Act, 
and the Duplication Scoring Act of 2019, which Chairman Paul 
and I introduced earlier this year.
    While I believe that authorizing committees should 
periodically review programs, I disagree with the premise that 
programs should automatically lapse or wind down if that does 
not happen, even when Congress agrees to fund them. It would do 
enormous harm to our constituents if programs to provide 
medical services to veterans, or to combat violence against 
women ended because Congress appropriated funding but failed to 
authorize the programs.
    I look forward to hearing from our witnesses today, and 
most importantly, I hope our witnesses can help us to identify 
ways to continue to improve congressional processes in order to 
safeguard taxpayers' dollars, while ensuring that Congress 
continues to support essential programs that serve the American 
people, and that the American people support.
    Thank you again, Mr. Chairman, for holding this hearing, 
and to the witnesses for your attendance.
    Senator Paul. Thank you, Senator Hassan. This is our second 
panel, and our first witness on the second panel is Kevin 
Kosar. Mr. Kosar is a Vice President of Policy at the R Street 
Institute, overseeing all of the think tank's research. He also 
co-directs the nonpartisan Legislative Branch Capacity Working 
Group, which aims to strengthen Congress.
    Mr. Kosar is the co-editor of the book Congress 
Overwhelmed: The Decline in Congressional Capacity and the 
Prospects for Reform. His writing has appeared in academic 
journals as well as the New York Times, Politico, and the 
Washington Post.
    Mr. Kosar holds a BA from Ohio State University and a 
doctorate in politics from New York University.
    Mr. Kosar, you are recognized for your opening statement.

TESTIMONY OF KEVIN KOSAR,\1\ VICE PRESIDENT OF POLICY, R STREET 
                           INSTITUTE

    Mr. Kosar. Thank you, Chairman Paul, and Ranking Member 
Hassan, and Members of the Subcommittee for holding this 
hearing and inviting me to testify. This is an important issue. 
I began writing about it a few years ago, and I was alarmed by 
what I was seeing, namely that it is a problem which continues 
to grow, but Congress has really struggled to prioritize it as 
a problem and to devise ways to deal with it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kosar appears in the Appendix on 
page 25.
---------------------------------------------------------------------------
    Now, as mentioned already, this past March, CBO reported 
that there were 971 expired authorizations and appropriations, 
and those can be found in 257 laws. At the time they amounted 
to about $158 billion in annual funding. But most recently, 
Congress appropriated some $307 billion toward those same 
programs. It is almost as if those authorizations, in statute, 
are just irrelevant. They might as well not be written law. But 
they are law, and law is supposed to matter.
    We have a lot of zombie programs, we have a lot of 
spending, and for sure the rise in unauthorized appropriations 
are a symptom of a broken congressional budget process. They 
also reflect general struggles that our legislature is having 
in the 21st Century.
    I would not want to weigh the way zombie programs is just a 
symptom. I think they are, in an of themselves, troubling and 
problematic, and I have four reasons for saying that, the first 
of which is Congress is just not following the plan it set out 
in the 1974 Budget Act. That law said authorize and 
appropriate. That is the law. Not following the law does not 
look good to anyone, as far as I can tell.
    The second, the rise of the zombie programs gives the 
appearance that Congress is abdicating its oversight duties 
because it creates programs, says that it is only going to 
spend money at a certain level for a certain number of years, 
and then proceeds to disregard that. Government watchdogs and 
citizens will be forgiven for wondering whether Congress has 
checked out and just abdicated its power over the public's 
money.
    Third, if Congress is not reforming these programs through 
reauthorizations, it raises the specter of anachronism. We may 
have Federal programs that we do not need. We probably do. 
These programs should be de-authorized and de-funded. 
Additionally, not reauthorizing statutes may mean we have 
Federal programs that are needed, that are important, but they 
are designed to solve the problems of yesteryear or they may be 
designed in a way to use the techniques of yesteryear. Both 
these scenarios, needless to say, are the antithesis of 
evidence-based policymaking, which is something that Congress 
has been moving toward over the recent years.
    Fourth and finally, failing to reauthorize programs 
delegates legislative authority to the Executive Branch. In 
short, agencies themselves get to decide what the law means, 
what the programs should do, and where the money goes.
    Now the growth in unauthorized appropriations has been 
fueled by a whole lot or factors that I allude to in my written 
testimony. Some are way beyond the control of Congress, like 
polarization. One factor that gets less consideration than I 
think it should is insufficient congressional capacity, vis-a-
vis the Executive Branch. Consider, the Executive Branch has 
perhaps 180 agencies which administer untold thousands of 
statutes and programs. The sheer giganticism of the Executive 
Branch has utterly outstripped Congress' ability to oversee it.
    CBO said that in fiscal year 2019 alone there were 130 
expiring authorizations for appropriations. That is a lot of 
laws to review and update. That is a huge workload. But 
Congress' capacity has not kept up with it. It has lagged, in 
some cases, if you look at the House. Particularly, it has gone 
down. The number of congressional staff has certainly not kept 
up. We know they are workhorses in helping do oversight. The 
amount of time Congress is in session today and able to hold 
hearings is about the same as it was in 1969. Those are 
diversion trends, to put it mildly.
    I would also say that when it comes to dealing with 
unauthorized appropriations, congressional capacity is a key 
piece. You have to have the resources, but it is not enough. 
You have to have will.
    There is, in the 1974 law, kind of an eat-your-spinach 
aspect to the reauthorization process. You should do it; it is 
the right thing to do. It is proper budgeting technique. That 
is in there. But what is the incentive to doing it? Clearly, 
Members of Congress, many of whom may feel personally that it 
is worth doing, but they do not bother to do it because it is 
hard work and it is often unrewarded.
    In looking toward reform, my general advice is it would be 
great to tackle zombie appropriations and to reduce them, and 
that it should be a two-pronged strategy. You need capacity and 
you also need to make sure that Members of Congress have the 
incentive to get it done.
    Thank you.
    Senator Paul. Thank you, Mr. Kosar. Our next witness is 
Jonathan Bydlak. Mr. Bydlak is Founder and President of the 
Institute for Spending Reform and the Coalition to Reduce 
Spending, which raises awareness about the need for responsible 
fiscal policy and balanced budgets. Mr. Bydlak's work on 
spending reform has been featured in columns ranging from 
Business Insider to Reason magazine to the Washington Examiner. 
He holds a bachelor's degree in economics from Princeton 
University. Mr. Bydlak, your opening statement.

   TESTIMONY OF JONATHAN BYDLAK,\1\ PRESIDENT, INSTITUTE FOR 
                        SPENDING REFORM

    Mr. Bydlak. Thank you, Mr. Chairman, and Ranking Member of 
the Subcommittee for the opportunity to speak with you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bydlak appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    It is no secret that, over time, Congress has found it 
easier and easier to ignore the budgetary instructions that 
lawmakers have set for themselves. Most Americans, and 
certainly Members on this Subcommittee, are familiar with the 
devolution of the budgeting process and the temporary stopgaps, 
onerous omnibus legislation, and even shutdowns that have 
become a part of modern government.
    But often lost in the noise over appropriation standoffs is 
the fact that the other side of that proverbial coin, budgetary 
authorizations, which is meant to be the first step, has been 
increasingly ignored. What is supposed to be a two-step process 
in which programs are first authorized before funding is 
appropriated, now works, more often than not, by ignoring that 
first step entirely.
    As we have already talked about, in 2019, Congress spent 
about $307 billion on nearly 1,000 agencies and programs that 
were no longer authorized. This is about 23 percent of the 
discretionary budget, but those numbers look even worse when 
you consider that every year we reauthorize the entire Pentagon 
budget in one bill, which is half of discretionary spending. 
That means that for all other discretionary spending, more than 
half is going unauthorized on an annual basis.
    As the chart\2\ I put in my written testimony illustrates, 
despite some blips up and down, the trend has been unmistakably 
moving in the wrong direction. For comparison, unauthorized 
spending in the early 1990s hovered under 10 percent of the 
discretionary budget. Today we are at typically more than a 
quarter.
---------------------------------------------------------------------------
    \2\ The chart referenced by Mr. Bydlak appears in the Appendix on 
page 30.
---------------------------------------------------------------------------
    Many specific programs have not been authorized, as we have 
touched on. My personal favorite is the Federal Election 
Commission, just because it has not been reauthorized since 2 
years before I was born, since 1981.
    Why does this matter? At a basic level, separating 
authorizations and appropriations is meant to reflect what I 
think we would all agree is a generally good practice, which is 
you should have a plan for spending money before you actually 
allocate the funds. This is an idea that dates back to the 
founding of our republic. Unfortunately, Congress in recent 
years, has not really seemed to agree.
    Contemporary lawmakers will say that they avoid these 
authorization procedures perhaps out of a desire to avoid what 
could be messy debate and could halt critical programs. I think 
equally likely is an assumption that it is not worth the burden 
of the reauthorization process when we have agencies that are 
operating without authorization, and there seems not to be any 
adverse consequences.
    But just because we do not see those consequences openly 
does not mean they do not exist. Skipping authorization can 
mean that programs intended to sunset continue past their 
expiration dates, while no one is the wiser. Whether government 
programs operate well is harder to know when Congress does not 
take the time to re-evaluate the worthiness of their existence. 
Even if only one program were being allowed to exist beyond its 
usefulness, no proponent of good government would say it is 
acceptable to let that situation continue without oversight.
    Abdicating responsibility in one area of the budgeting 
process makes it easier to abdicate responsibility elsewhere. 
The issue of unauthorized appropriations cannot be easily 
separated from the other budgetary problems the Nation 
currently faces.
    Unauthorized appropriations may not represent the entirety 
of the Federal budget, or even of the discretionary budget, but 
that does not mean we should forego the opportunity to re-
evaluate and reform this $300 billion, and counting. Consider 
that resources are limited, and in the era of tight budgets and 
worsening debt, a billion, or even a million, dollars misspent 
can represent dollars stripped away from critical national 
priorities or the taxpayers' wallets.
    Now critics may argue that regardless of whether 
appropriations are authorized there is already plenty of 
accountability over where Congress, and subsequently agencies 
and departments, spend taxpayer funds. I think this view is 
overly optimistic at best, but consider an analogy that may be 
appropriate.
    In 2001, Congress passed the Authorization for the Use of 
Military Force (AUMF) in Afghanistan, and in the years since, 
many, including some on this Subcommittee, have called for a 
new vote, arguing that the 18-year-old AUMF should hardly 
provide a blank check for today's overseas engagements. In such 
discussions, few accept the argument that because there are 
other ways of ensuring wartime accountability that we should 
not bother following the rules or reassessing the original 
authorization.
    It is my contention that the same should hold true in the 
case of fiscal rules as well. If Congress, at the time of 
originally authorizing a program or agency, does so for a 
specified period of time, we should respect those wishes in the 
name of ensuring the most efficient use of the societal 
resources that we have at our disposal. If the rules are arcane 
or no longer useful--certainly one can argue there are plenty 
to which that description applies--the correct solution is to 
change them, to update them, not to ignore them indefinitely.
    Tackling the current problem requires both addressing the 
existing programs with expired authorizations and reforming the 
process to ensure that kind of spending stops going forward.
    A couple of principles that we may want to consider. There 
should be meaningful enforcement mechanisms so that 
unauthorized spending does not continue unchecked as it has for 
decades. Recent legislation, such as that by Representative 
McMorris Rodgers, proposed a combination of sunset provisions 
and a rolling sequester to gradually reduce the amount of 
unauthorized spending. I think that is a good suggestion.
    There also must be broader and more holistic effort to 
return this body to being a deliberative budgeting entity. 
Legislators ultimately have responsibility for making budgeting 
decisions, rather than having them arise as a de facto product 
of political chaos.
    Every Federal agency is supposed to operate under 
congressional authorization. These are the rules that define 
the priorities and activities of the government. When they 
expire, there comes a time to reconsider an agency's mission, 
modernize, or end them, if applicable, and impose some 
accountability onto the process instead of abdicating 
responsibility to open-ended spending.
    Reforming unauthorized appropriations is a great place to 
start evaluating government spending more broadly. Even so, it 
should not be viewed as a cure-all for our budget woes but as 
an untapped area of potential reform.
    I applaud the Subcommittee's willingness to hold this 
hearing and explore solutions before the issue becomes even 
more unmanageable, and I look forward to answering your 
questions.
    Senator Paul. Thank you. Our last witness today is Dr. 
James Thurber. Dr. Thurber is the Distinguished Professor of 
Government at American University. He is also the Founder of 
the Center for Congressional and Presidential Studies and the 
Affiliate Distinguished Professor of Public Administration and 
Policy at American University.
    Since 1976, he has worked for several Members of Congress 
on issues including budget process reform and congressional 
committee reorganization.
    Professor Thurber holds a bachelor's degree in political 
science from the University of Oregon and a PhD in political 
science from Indiana University. Professor Thurber.

 TESTIMONY OF JAMES A. THURBER,\1\ DISTINGUISHED PROFESSOR OF 
                GOVERNMENT, AMERICAN UNIVERSITY

    Mr. Thurber. Thank you very much Chairman Paul and Ranking 
Member Hassan, and other Members of the Subcommittee. I have a 
statement here that I was going to read. I am not going to do 
that. I just want to say a few things.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Thurber appears in the Appendix 
on page 34.
---------------------------------------------------------------------------
    I first started working in the Senate in 1973. I was here 
for the 1974 Congressional Budget and Impoundment Control Act 
(CBICA) and worked on it. I have written about it. I have 
written a lot about the failures of it. It has only passed four 
times on time since 1976, when we fully implemented it. That is 
part of this problem.
    Second, I worked as a professional staff member on the 
Bipartisan Temporary Select Committee to Study the Senate 
Committee System. That was the last ime we reduced the number 
of committees, realigned jurisdictions, and reduced committee 
assignments. It worked pretty well for a while.
    The discussion brought back discussions that we had on that 
committee. The chairs were Senators Adlai E. Stevenson and Bill 
Brock. We talked about merging the Appropriations Committee 
with Authorizations--a very controversial thing. But in my 
opinion, the appropriators have taken over the power of 
authorizing, totally.
    To summarize some of my thoughts here rather than reading 
it, I think that this is a consequence of extreme partisanship 
and gridlock, and the leadership is controversial. But the 
leadership does not give the committees the incentive and the 
freedom to do the kind of oversight that they should be doing.
    Second, the budget for the committees are not there. They 
are a part of the reform. In 1976, what we had was we asked 
committees to have an oversight agenda, and the committees 
would get money related to the oversight that they were doing 
or what they did.
    I suggest that changing the rules may not work immediately 
but there are a bunch of things that you can do in the interim. 
One is to return to the regular order. Easy to say. Take a 
little bit of power away from the leadership. Give more power 
to the chairs of the committees. Let them work their will. 
Because some committees are quite bipartisan, by the way. 
Energy and Natural Resources Committee is well-known for being 
quite bipartisan. I think your committee is also. They can work 
their will. They can get some things done.
    Third, I think it should be required that every committee 
should have a list of all the unauthorized programs within 
their jurisdiction. That should be part of their website and it 
should maybe create a way to motivate the committee to do a 
little bit more on that.
    Last, authorizers sometimes do not want to pass a bill 
because they cannot get exactly what they want, and so there 
are these unholy alliances with appropriators. You know about 
it. Maybe you are involved with it. I don't know, where you 
can't get something----
    Senator Paul. We are not in any unholy alliances. 
[Laughter.]
    Mr. Thurber [continuing]. When you can't get something 
through authorizations so you do a non-transparent agreement. A 
quid pro quo? No. A transparent agreement with the 
appropriators, and they take care of that little problem that 
you have. Make those things more visible to the American 
public.
    I think that the basic work of the Congress is not getting 
done, and we cannot blame it all on polarization or all on the 
leadership. Some of it is you, the Tuesday to Thursday Club. 
Now I know you do not belong to the Tuesday to Thursday Club, 
but people in the permanent campaign that is going on, and all 
the people running for the presidency now is something else, 
but the permanent campaign, they are out bringing in money, 
helping others bring in money, and they are not here doing 
their work. If they were here doing their work, and the 
leadership tries to do this 3 weeks on, 1 week in the district, 
I think you would get much more done. That reform has been 
around since the late 1960s, and Congress cannot seem to deal 
with it.
    The funding of these committees should be directly linked 
to their productivity, and maybe, again, as I said before, it 
would get more done.
    I believe in biennial budgeting. I have published about 
that. We really have it anyway. Only about 10 percent of the 
budget of the Federal Government is controllable from year to 
year. That means you have multi-year budgeting going on anyway. 
I would push for that.
    In conclusion, unauthorized spending is a symptom of a 
broader dysfunction, in the budget process and in Congress, 
generally. The ability of Congress in the absence of a hard-
working partisan center--I am from Oregon. We believe in sort 
of radical, centrist positions. If you do not have a bipartisan 
center you cannot effectively deal with problems like oversight 
of these authorizations.
    No wonder the public is dissatisfied with what Congress is 
doing. No wonder you are at the 14 percent level. But the 
public also wants you to confront the opposition. The Pew 
Charitable Trust poll of October 19th shows that while they 
really want you to do more, and get along, and compromise, but 
they want Congress to stand up against the opposition. They 
want to go to heaven without dying, really, and you have to 
deal with that.
    In conclusion, my recommendations are not radical. I think 
they are practical. You need to bring the leadership in on this 
and get them to agree with this. Now that does not mean, 
Senator, that I am against your bill. I am just trying to be 
realistic about some procedural things that can be done here to 
help out.
    Senator Paul. Thank you. Thank you for your testimony.
    I think probably there is some agreement on both sides of 
the aisle and among the panel and probably the public that we 
probably should authorize what we spend, and maybe that having 
authorization bills and appropriation bills is a good idea. I 
worry about making them the same people and putting them all in 
the same hands, because they are different types of 
personalities. At least on the Republican side, we see the 
appropriators as people who are more inclined to spend money we 
do not have, and those of us who are not on the Appropriations 
Committee are purposely not put on the Appropriations Committee 
because we will not vote for spending.
    Really, when you come to Washington, the selection process 
on our side is made. Spenders, people who are willing to vote 
for spending, are put on the spending committees. The people 
who are less inclined, think we spend too much, or that our 
budgets should be balanced, are not put on there. Our only 
chance to get balance, from the Republican perspective, would 
be to have authorization separate from appropriation.
    You mentioned the Budget Act of 1974. Not only did we have 
the Budget Act of 1974, we had Gramm-Rudman, Hollings, and Pay-
As-You-Go (PAYGO). We have had all of these things to try to 
reform at least the accumulation of debt, and they have all 
failed. I guess it is because lawmakers make laws and they can 
also ignore their own laws. We simply have I think at one 
count, Pay-As-You-Go had been ignored thousands of times.
    That gets to the next question, and that is a real 
pertinent question here. How do you force Congress to do what 
they should be doing, even encourage them to do it? But I think 
that is why I am for a bill that has a hammer. Now there may be 
some disagreement on what the hammer is, but I am willing to 
compromise on what the hammer is. If there is concern about a 
program completely expiring, let's take that off the table.
    We have significant cuts. We have a 20 percent cut after 
the first year if it is not authorized, and then a 52 percent 
cut. Maybe that is way too dramatic, but if you were willing, 
or if the other side was willing to agree to some kind of 
hammer, maybe it 
is a 1 percent cut, or maybe it is a freeze. Even a freeze 
would be--don't you think we would go crazy with a freeze 
around here? Even if we froze spending at the last year's level 
people would go, ``Oh, my goodness. The world is coming to an 
end. We cannot have a freeze.''
    I would think that number would be negotiable, what the 
hammer is. If the hammer is not acceptable, though, I guess my 
question for the panel would be, how do we get Congress to obey 
this? Do we need a hammer, and what should the hammer be? If 
the hammer is not reducing spending, are there other possible 
hammers? Both my bill and the McMorris Rodgers' bill have the 
hammer as reducing spending if you do not authorize.
    Why do we not start with Mr. Kosar and we will work our way 
down.
    Mr. Kosar. Thank you. Yes, I think there is some value in 
having a statutory source of pressure, and what you just 
alluded to, OK, let's not reauthorize. Well, you are frozen. 
Nothing dramatic but it does start to create pressure, that 
over time would hopefully induce some sort of action.
    I think, also, the idea of, in some way, linking committee 
budgets to reauthorizations and reauthorization performance, I 
think that would be very interesting. I can say that in the 
early 1970s, when Congress really seized back a bunch of power, 
it started to reach Congress. It was like, hey, we are creating 
plans for doing oversight. They worked the process. I mean, 
that was the era of joint committee reports being issued. They 
took it seriously. But over time that sort of attitude has 
fallen away, and you cannot just wave our fingers at them and 
chastise them and say, ``Do this more.'' The personal 
incentives just do not seem to be there. So, OK, let's use 
something simpler--more funding. That may be another way to go.
    Senator Paul. Mr. Bydlak.
    Mr. Bydlak. Yes, I think as I said in my remarks, I think 
you need to have some sort of enforcement mechanism. You can 
pass whatever rule you want but if there is no way of actually 
enforcing it then it is not really going to make much of a 
difference.
    I would say, broadly speaking on budgetary issues, if you 
look at what is done in the States, or even in some other 
countries, it is those places that have some sort of firm 
enforcement mechanism that tend to have more responsible 
finances. If you look at fiscal rules in Sweden or Switzerland, 
for example, we forget about this. Sweden had an entitlement 
crisis and they put in place a statutory regime that--obviously 
they were not dealing with the problem of unauthorized 
appropriations--but they put in place very stringent rules that 
dictated what their government was able to spend, and, as a 
result, they had more responsible fiscal outcomes, both in 
terms of economic well-being and economic distress.
    I think with any problem like this that is budgetarily 
related, at the core there has to be some way of ensuring that 
future Congresses will actually follow that rule.
    I should say, one other point: political scientists often 
say that there is no way of binding future Congresses. But, in 
a sense, that is kind of what we are doing here by not 
following through on tackling unauthorized appropriations. We 
basically have past Congresses that are authorizing programs, 
and then today we are just deciding that we are going to follow 
those same rules. We are essentially assuming that Congress 
itself is being bound by these past rules. We do not really 
accept that in other areas. I think here we probably would be 
best not to as well.
    Senator Paul. Dr. Thurber, you get a double. We are going 
to double down on you because you get to answer the question on 
how do we get Congress to authorize and how do we get them to 
obey the 1974 Budget Act. Since you helped write it, how do we 
get Congress to obey it?
    Mr. Thurber. I have to take pharmaceuticals when I look at 
how badly it has been implemented. I have written a whole 
history of the dysfunction----
    Senator Paul. That is not the answer. We want the answer. 
How do you force Congress to pay attention to it?
    Mr. Thurber. First of all, I like the idea of a hammer and 
freezing a program. You cannot zero out veterans programs or 
violence against women program--I mean, maybe you could but I 
think it is unreasonable--or NASA or all these others. You have 
to send a message that if you do not get your act together, we 
are going to have a leveling out, a freezing of the program. I 
like that.
    By the way, it was mentioned that things were better in the 
1970s, and I have a whole book on this, about polarization, 
where it came from, and its impact. In the 1970s, we had about 
third of the House and the Senate that voted together, and we 
had Senators Bellmon and Muskie, Chairs of the Budget 
Committee, that were two former Governors. Governors know how 
budgets are put together and they did a great job. They had a 
bipartisan approach and they did a great job, better than the 
House, for the first 4 years.
    Personality makes a difference, but also the nature of who 
is in the body makes a difference. Right now we have 4 percent 
of the members that regularly vote together. Congress has a 
bimodal distribution of ideology. Nobody in the middle. That is 
one of the reasons why Congress cannot get the work done. But 
that is why I gave you these incremental, not-very-sexy ideas 
about changing the process, getting members to work, getting 
people together in committees to talk with each other and work 
problems out. That is not really going on.
    The Budget Impoundment Control Act. Whenever it failed, 
Congress changed the rules--you mentioned three of them--and 
that continually goes on. It is going on this year. When you 
have omnibus continuing resolution (CR) going on, it is really 
sort of changing the rules.
    Senator Paul. Just to interrupt you for a second--every 
time--a lot of people do not realize this--whenever we pass 
CRs, we have to pass an exemption to a lot of the rules you are 
talking about. I think the Pay-As-You-Go is a rule. We are 
supposed to absolutely do that. We exempt ourselves from it. 
Every time we vote for CR, it's in the language.
    Mr. Thurber. A former student of mine helped write the 
PAYGO rule as a staff member. I am very proud of that.
    One thing I do is teach my students about how bad the debt 
and the deficit are, and how this is failing, and that they 
should get engaged up here with staff members. I have over 180 
former students working as Congressional staff members, and 
four Members of Congress. Some of the Members of Congress have 
forgotten what they learned in my class maybe.
    But I hope I have answered your question. I do not think I 
did. [Laughter.]
    Senator Paul. Senator Hassan.
    Senator Hassan. I want to thank you again, Senator Paul, 
for convening this hearing, and I want to thank our witnesses 
for your very insightful and thoughtful testimony.
    Dr. Thurber, I want to drill down a little bit with you, 
and I am going to ask these questions and then I am going to 
apologize because I am supposed to check in at one more hearing 
before we have a meeting.
    But, Dr. Thurber, I have real concerns that we have all 
talked about with our lack of authorizations, to be sure, but 
real concerns for the Senate's failure to take up attempts to 
reauthorization appropriations for some of the government's 
most important programs, and you just talked about a couple of 
them.
    For example, the Violence Against Women Reauthorization Act 
passed the House in April. The House actually has reauthorized 
it. It contains a number of provisions that reauthorization 
expired programs that provide vital services for all Americans. 
But it is now stalled on the Senate floor. Can you elaborate? 
You talked about the attractiveness of some sort of hammer or 
consequence, but I think it is really important when we talk in 
the abstract about that to also talk about the harm that 
results from not reauthorizing these programs. Can you 
elaborate on what not reauthorizing the Violence Against Women 
Act, what kind of impact that would have?
    Mr. Thurber. First of all, it is disruptive in terms of 
running a program.
    Senator Hassan. Right.
    Mr. Thurber. You, as a Governor, understand that. I worked 
with Sandia and Los Alamos Labs, and when the government shuts 
down or it looks like they are not going to be funded, the 
Energy Department was last authorized in 1984, it really 
disrupts things. It is the same with the VAWA, and those 
programs are very important not only to women but to the 
elderly, to a variety of local groups that are helping people 
that are in danger. The Stalker Reduction Database gets shut 
down and you have to get it started again, and the Sexual 
Assault Services Programs throughout the United States. Right 
now that really serves an important topic, and it is really 
sending the wrong message. But there is an elder abuse grant 
program that would get cutoff.
    The question is, if you are running a program and you have 
these goals and objectives, and it looks like the program is 
not going to get the money, it just does not work. You go up 
and down like this. Governors know this. The city managers know 
this. The National Association of Counties (NACO) knows this.
    Senator Hassan. Yes, and it gets very hard to recruit and 
retain critical staff to do things like help people who are in 
danger.
    Another example----
    Mr. Thurber. Excuse me, Senator, if I could just mention 
one thing.
    Senator Hassan. Yes.
    Mr. Thurber. Sometimes these programs have one or two 
provisions that hold up the authorization. It does not mean 
that, Senator Paul, maybe you are not for this. I will just 
assume that you are for many of these programs. There are very 
narrow provisions that are extremely controversial and it holds 
it up. That is where Senators have to get together and you have 
to compromise.
    Senator Hassan. Right.
    Mr. Thurber. And that is not going on.
    Senator Hassan. Right. But in some cases--we have the 
Violence Against Women Reauthorization Act, which passed the 
House is stalled over here. Another example is the Nelson and 
Pollard Intelligence Authorization Act, which would reauthorize 
funding for the intelligence activities of 16 different 
agencies. This authorization expired in 2017. The bill passed 
the House 396-31, a huge bipartisan vote, but is yet to be 
acted upon in the Senate. A failure to reauthorization 
intelligence activities would certainly have an effect on our 
national security.
    Dr. Thurber, what would you do to encourage Congress to 
pursue proactive reauthorizations?
    Mr. Thurber. I would suggest that the caucuses, both 
caucuses, really push their leadership to do something about 
this. These things are not going forward frequently because the 
leadership does not want them to go forward, because they think 
they have consensus of the caucus. Sometimes they do not. Many 
times both parties would like to have things go forward but the 
leadership is in the way. I know that is easy to say, and in an 
election year it is very hard--every 2 years it is very hard to 
get them to move.
    But remember, the House is Democratic and it is pretty 
progressive and liberal, and so passing this act maybe is 
something that the Republican leadership does not want to touch 
in an election year.
    Senator Hassan. Which I understand, but it passed 396-31.
    Mr. Thurber. I know.
    Senator Hassan. I have one more question that I do want to 
get to, but I also just want to point out, when we talk about 
winding down programs that have not been reauthorized, perhaps 
the most startling one to me, as a relatively new member of the 
Senate, is the spending authorizations for medical services and 
hospital care for our veterans expired in 1998. To my 
knowledge, no bill has been introduced in this Congress to 
reauthorize spending for the health care of 18.2 million 
veterans.
    I do not think that any of us want to neglect to fund 
medical services for veterans, simply because we do not pass 
the spending authority for the services. Would you agree with 
that?
    Mr. Thurber. I would agree, and CBO estimates that $73.3 
billion has not been reauthorized for the Veterans Health Care 
Eligibility Reform Act, and that is the largest of all of them.
    Senator Hassan. I thank you for that. I do have one other 
question, and I wanted to get all the witnesses to answer on it 
. We have been discussing the broken reauthorization process 
but we have yet to hit on the broken appropriations process. It 
has been 22 years since Congress last passed all 12 regular 
appropriation bills on time. When the appropriations process 
breaks down, the government shuts down.
    I have been working hard with my colleague, Senator James 
Lankford from Oklahoma, to pass the Prevent Government 
Shutdowns Act, which implements an automatic continuing 
resolution when Congress fails to pass the regular 
appropriations bills, and ensures that members stay in 
Washington to get an appropriations package passed by 
restricting their travels, which simply says we cannot go home, 
and neither can our staff, by the way. Nobody can travel.
    As we consider how to conduct better oversight of Federal 
programs, it is imperative that we work to consider, debate, 
and vote on every single appropriations bill. To that end--and 
I realize I am just about out of time--for each of our 
panelists, how can we ensure that Congress carefully considers 
each appropriation bill, as it used to? If you could briefly 
give an idea or two and then we can follow up with you in 
writing.
    Mr. Kosar. Sure. I think your proposal actually speaks to 
the personal incentives. That is a hammer, that would change 
behavior. The second thing is I think the current 
appropriations calendar, as laid out in the 1974 Budget Act, is 
undoable. The government is too big, it is too complicated to 
ram everything through in that short amount of time.
    Senator Paul. Do you think that is fixed by a 2-year 
program, a biennial?
    Mr. Kosar. It could be fixed by a 2-year biennial program, 
but you have to make sure they actually do the work and they do 
not save everything until the last minute.
    Senator Paul. Right.
    Mr. Bydlak. Yes, I think a 2-year biennial can be useful, 
depending on the agency or the type of spending that we are 
talking about. It may not be appropriate for some. There may be 
some departments that you may want to a longer period.
    But my concern is that when we have had instances where we, 
if you have gotten spending under control or addressed our 
debt, or had sort of deals that have addressed the debt, they 
have often times come out of some of these conflicts that we 
have had. There is this strange situation where, on the one 
hand, none of us necessarily want the government to shut down 
or want to face these sorts of controversial moments, but the 
reality has also been that it has been those moments that have 
actually given us some of the mechanisms by which we have 
actually addressed our spending and debt.
    My personal view is that I think all these solutions should 
be on the table, but I would be a little hesitant about having 
fewer discussions about spending restraint and our growth in 
debt than we currently have.
    Mr. Thurber. I will get back to the point. If you look at 
the budget, about 10 percent of the budget is relatively 
controllable from year to year. If you take into account 
mandatory programs, of course, you can get rid of Medicare and 
Medicaid and some other programs, but it is unlikely. Net 
interest and long-term contracts, the long-term contract with 
the Air Force tanker with Boeing of $41 billion, if you cut it 
off you will get sued for more than the $41 billion probably.
    All of those add up to 90 percent of the budget. So if, 
every 2 years, you were really focusing on that 10 percent, I 
think you could make some progress in terms of dealing with 
unauthorized programs.
    I think it is ridiculous that we have not authorized 
programs for the veterans, for the 9/11 Commission, or for 
NASA. Americans would be shocked if they knew about this.
    Senator Hassan. Thank you very much. Thank you, Mr. Chair, 
for letting me go over.
    Senator Paul. Thank you, and I hope we can maybe get 
together. This is just a comparison of the two bills, and if 
there is some kind of hammer we could agree to. The only thing 
I would say about a hammer is even if the hammer were a freeze 
for something that you wanted, I think it would be enough 
incentive by those who want it not to be frozen that we would 
actually bring it up.
    Senator Hassan. Yes, and part of the shutdown bill that 
Senator Lankford and I have provides for level spending while 
we are being required to stay here in D.C. and hammer out 
actual appropriations. It does not allow for a cut, which is 
what some people on your side of the aisle want, but some 
people on my side of the aisle would want an automatic 
increase. It does not do either of those things. It just keeps 
it level.
    Senator Paul. Right.
    Senator Hassan. I look forward to continuing to work with 
you on this.
    Senator Paul. Thank you.
    I want to thank our panel for looking at this, and I think 
the problem is bigger than just authorization. As we mentioned 
the Budget Act and we mentioned so many rules that we have that 
we just ignore, and how do you force people who ignore rules to 
follow rules? Do you get better people? That is part of it. 
Part of it is the electoral process.
    But it seems to go on and on, decade after decade, and the 
budget is probably the most noticeable, how many times we have 
reached that and how now it is stuck in the bills. It is a 
privileged vote that you can bring up, but I have brought up 
the privileged vote on the PAYGO. I think the last time I 
brought it up we had exceeded it and we did not adhere to the 
PAYGO rule. It got 8 votes in favor of enforcing the PAYGO. But 
we exceeded it so much that there would have probably been 
hundreds of billions of dollars they would have had to cut, 
because they are completely exceeding and ignoring all of the 
rules.
    I want to thank the panel for coming today. Keep working on 
this project. Keep in touch with us. If you have specific 
suggestions on either my legislation or Representative McMorris 
Rodgers' legislation, let us know. We will continue to work 
with the other side to see if there has to be an enforcement 
mechanism. If there is no enforcement mechanism, I agree we 
should encourage leadership, but they do not listen a lot of 
times.
    Mr. Thurber. Even though they are from the same State?
    Senator Paul. Even so. The problem is that there is also a 
built-in incentive. You mentioned it briefly. When we do not do 
appropriation bills, all the power focuses on one or two people 
up there, so it ends up being a deal with the majority leader, 
the minority leader, and the President. Three people get 
involved, and at that point in time there are special things 
that go into bills, but they only happen between those three 
people. Not only are the appropriators cut out, all the non-
appropriators--everybody is cut out, and it becomes a Congress 
of three people at that point.
    Mr. Thurber. You do not know what is in it until it is too 
late.
    Senator Paul. Yes. It is two or three thousand pages and we 
get it that morning. There are all kinds of problems here. I 
think we should continue to explore and explore the solutions. 
I do not think they necessarily have to be partisan, and I will 
work together with Senator Hassan and see if we can come up 
with some solutions. But we appreciate your input. Thanks.
    [Whereupon, at 2:50 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
